           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



         SOCIAL SECURITY
         ADMINISTRATION’S
     TICKET TO WORK PROGRAM


   December 2004       A-02-03-13079




 AUDIT REPORT



                   -
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   December 20, 2004                                                  Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Social Security Administration’s Ticket to Work Program (A-02-03-13079)



        OBJECTIVE
        Our objective was to conduct a performance review of the Social Security
        Administration (SSA) and its contractor MAXIMUS, Inc. (MAXIMUS) to ensure contract
        objectives were being met and were in accordance with the Ticket to Work (TTW) and
        Work Incentives Improvement Act.

        BACKGROUND

        The TTW program was established by the Ticket to Work and Work Incentives
        Improvement Act of 1999.1 The program provides eligible Disability Insurance (DI) and
        Supplemental Security Income (SSI) disabled beneficiaries with tickets, which can be
        used to obtain vocational rehabilitation (VR) or employment services through an
        Employment Network (EN) or State VR agency. The program is intended to increase
        access to, and the quality of, rehabilitation and employment services available to
        disabled beneficiaries. TTW was designed to provide beneficiaries with greater freedom
        and choice of service providers, create competition among providers to provide high
        quality services that are responsive to beneficiary needs and give providers incentives
        to deliver services in the most efficient and appropriate manner to achieve desired
        outcomes. Day to day administration of the TTW program is the responsibility of a
        Program Manager. SSA has contracted MAXIMUS to perform this role.2 The contract
        with MAXIMUS includes 23 tasks representing the specific services it is required to
        provide.

        In this review, we have selected the following 10 tasks identified in the contract. The
        remaining tasks will be reviewed at a later date and reported through separate reports.
        (See Appendix C for a full description of the TTW program and each task we reviewed.)


        1
            Public Law No. 106-170.
        2
            Contract No. 0600-00-60020.
Page 2 - The Commissioner


   •   Task 1- Contractor Orientation              •   Task 16 - Monthly Progress Reports
   •   Task 2 - Start-Up Plan                      •   Task 17 - Annual Report
   •   Task 3 - Toll-Free Number                   •   Task 20 - Periodic Meetings with
                                                       SSA Project Officer
   •   Task 8 - Ticket Program Training            •   Task 21 - Periodic Special Studies
   •   Task 9 - Management of Ticket               •   Task 22 - Conference Planning
       Process

RESULTS OF REVIEW

SSA and MAXIMUS generally met the contract objectives within the 10 tasks we
reviewed, which were established to ensure for the proper implementation and
management of the TTW program. While the contract tasks were met, we identified
opportunities to improve the management of the program. MAXIMUS retained
information on undeliverable tickets, including those that were returned due to the
suspected death of the addressees, but SSA did not request to receive this information
from MAXIMUS for further investigation. We could not confirm in all cases that
MAXIMUS received a signed letter from a beneficiary when one was required prior to
initiating a change to the ticket holder’s status. Also, MAXIMUS reported that SSA was
unable to accurately provide ticket eligibility data for beneficiaries, and systems
problems can lead to the inappropriate termination of tickets. Finally, we could not
determine how many of the ENs and VR agencies enrolled in the TTW program have
been trained on the requirements of participation in the program.

MANAGEMENT OF TICKET PROCESS

As required by the Management of Ticket Process task, MAXIMUS developed
processes for the timely issuance of tickets to beneficiaries on a phased-in basis; the
registration, transfer, and termination of tickets; and, the monitoring of continuing ticket
eligibility. In its efforts to fulfill these steps, MAXIMUS:

   •   managed tickets that were returned as undeliverable,
   •   processed beneficiaries’ requests for termination from the TTW program,
   •   processed beneficiaries’ requests for reassignment of their ticket to another EN
       or State VR agency, and
   •   attempted to alert ENs and VR agencies when tickets were scheduled to expire.
Page 3 - The Commissioner


Undeliverable Tickets

We concluded that a ticket was mailed to all eligible beneficiaries.3 Of the tickets mailed
through December 12, 2003, there were 6,054,294 (98.36 percent) not returned and
100,640 (1.64 percent) returned to MAXIMUS by the United States Postal Service
(USPS) as undeliverable for various reasons.4 (See Table 1.)

                                                Table 1
         Reason Mail Was Undeliverable                           Number of Tickets Returned
    •   Attempted – Not Known                                               58,043
    •   Moved, Left No Address                                              16,958
    •   No Such Number                                                       9,244
    •   Not Deliverable As Addressed                                         4,900
    •   Box Closed – No Order                                                3,529
    •   No Mail Receptacle                                                   2,707
    •   No Such Street                                                       1,453
    •   Vacant                                                               1,281
    •   Insufficient Address                                                   645
    •   Deceased                                                               625
    •   Refused                                                                600
    •   No Returned Address Code                                               211
    •   Unclaimed                                                              190
    •   Returned For Better Address                                             71
    •   Returned To Sender – False Rep                                          70
    •   Illegible                                                               49
    •   No Such Office In State                                                 26
    •   Temporarily Away                                                        21
    •   Returned To Sender – Lottery Order                                      11
    •   Outside Delivery Limits                                                  5
    •   In Dispute                                                               1
                          Total                                                100,640




3
  Some eligible beneficiaries were not yet mailed tickets at the time of our audit. These beneficiaries
were part of the third phase of ticket mailings, which was ongoing at the time of our audit. We confirmed
that all eligible beneficiaries who lived in States that were already phased-in were mailed tickets.
4
  The number of tickets not returned includes those that were originally returned to MAXIMUS after the
initial mailing and were re-mailed and not returned.
Page 4 - The Commissioner


Returned tickets were either re-mailed or not subject to a second mailing for the
reasons cited below. (See Table 2.) SSA and MAXIMUS jointly decided not to re-mail
some returned tickets. This decision was based on the expectation that a second
mailing would result in the tickets being returned again, unless new information was
available. MAXIMUS re-mailed tickets regardless of the reason they were returned
when it received updated address information from SSA.

                                         Table 2
                   Reasons Mail Was Undeliverable (Mailed Again)
   •   Illegible                  •   In Dispute                  •   Insufficient Address
   •   Not Deliverable as         •   Returned to Sender-         •   Returned to Sender-
       Addressed-Unable to            False                           False
       Forward                        Representation                  Representation and
                                      Order                           Lottery Orders
   •   Returned to Sender-        •   Returned for Better         •   Returned for
       Lottery Order                  Address                         Postage
   •   Outside Delivery           •   Temporarily Away            •   Unclaimed
       Limits
                Reasons Mail Was Undeliverable (Not Mailed Again)
   •   Attempted – Not            •   Box Closed – No             •   Deceased
       Known                          Order
   •   Moved, Left No             •   No Mail Receptacle          •   No Such Number
       Address
   •   No Such Office in          •   No Such Street              •   Refused
       State
   •   Vacant


The contract originally required MAXIMUS to batch mail that was returned due to
inaccurate addresses, notify SSA on a monthly basis of the need to investigate the
whereabouts of currently ticket-eligible beneficiaries, and await further instructions from
SSA. A modification to the contract was prepared in October 2003 requiring MAXIMUS
to maintain a record of those beneficiaries to whom ticket packages could not be
delivered, and to provide it to SSA upon request, as opposed to automatically providing
the Agency this information on a monthly basis.

According to MAXIMUS, SSA has never requested the record of undeliverable tickets
since the contract was amended in October 2003. While MAXIMUS and SSA exchange
nightly transfers of computer transaction files, which update the status of ticket holders
within each entity’s databases, information on undeliverable mail is not passed to SSA
through this process or any other process.

Of the 625 beneficiaries whose tickets were returned to MAXIMUS with the envelope
stamped “Deceased” by the USPS, we found 99 of these beneficiaries to be in current
Page 5 - The Commissioner


pay status. These beneficiaries continued to receive benefits totaling $976,219 from the
date MAXIMUS was notified by the USPS that these individuals were deceased until
March 2004. The Program Operations Manual System requires SSA to develop
(investigate) instances when it is informed of a potential death through an undeliverable
envelope or piece of mail that has been marked “Deceased” by the USPS.5 Similarly, a
Policy Instruction states that if the word “Deceased” is written on the outside of an
envelope returned to SSA, a service representative should take steps to verify the
alleged death.6 Two of the 99 beneficiaries were in current pay status in one of SSA’s
programs, but were recorded as deceased in the other program.

We did not quantify the potential overpayment for mail returned for other reasons. Mail
returned for a wrong address could be an indication that a SSI disability recipient’s living
arrangements have changed, which could affect the individual’s benefit payment
amount. For example, the General Accounting Office recently reported that
overpayments to SSI recipients not present in the United States, known as residency
violations, totaled about $118 million between 1997 and 2001.7

Retaining Beneficiaries’ Letters

The contract requires MAXIMUS to update the record of each beneficiary when a
change in a ticket holder’s status occurs. Ticket holders must submit their request in
writing to leave the TTW program or to reassign their tickets from one EN or VR agency
to another. We reviewed 20 ticket status changes within MAXIMUS’ electronic records
of ticket holders. Of these 20 changes, we located 10 letters signed by the beneficiaries
that requested the change that was made. We were unable to locate a signed letter for
the remaining 10 changes.

Ticket Expiration

The contract requires MAXIMUS to alert ENs and State VR agencies when a
beneficiary’s ticket eligibility is scheduled to expire. ENs and State VR agencies are not
paid through the TTW program for milestones or outcomes achieved in or after the
month in which the ticket terminates. MAXIMUS and SSA exchange nightly transfers of
computer transaction files. Any transaction occurring in the MAXIMUS computer
system on a daily basis is captured for transfer on these nightly files. Likewise, SSA is
supposed to capture any transaction affecting the ticket status of eligible beneficiaries
and transfer the information to MAXIMUS. As part of this effort, SSA is supposed to
pass MAXIMUS information on any tickets due to expire, so that appropriate information
could be relayed to ENs and State VR agencies.


5
    Program Operations Manual System, GN 02605.055, Undeliverable Mail.
6
    Office of Central Operations, 03-0373 GS.
7
 Supplemental Security Income: Sustained Management Attention Needed To Address Residency
Violations, GAO-04-789T, May 2004.
Page 6 - The Commissioner


According to MAXIMUS, SSA’s system, the Disability Control File, has failed to pass
information to MAXIMUS’ system, MAXSTAR, on ticket expiration dates. In fact,
according to MAXIMUS, SSA is approximately two years behind in its ticket-readiness
release schedule. In addition, MAXIMUS reported that it discovered many “bugs” within
the transfer of data between SSA’s and MAXIMUS’ systems since SSA’s conversion to
its new Disability Control File in November 2002. One such bug caused the SSA
system to terminate tickets inappropriately. (System development for the TTW program
will be further addressed in a separate OIG audit.)

TICKET PROGRAM TRAINING

The contract called for MAXIMUS to provide training and technical assistance to ENs
and State VR agencies on the requirements of participation in the TTW program. The
training is provided to agencies by request. MAXIMUS informed ENs and VR agencies
of the training opportunities available at the time the agencies entered the TTW
program. As of April 2004, MAXIMUS provided classroom style training to the 9 ENs
and 11 VR agencies who requested it. (See Table 3.) As of April 2004, 1,115 ENs and
75 VR agencies were certified to be part of the TTW program.

                                        Table 3
                                     ENs Trained
   •   Gulfstream Goodwill Industries, Inc.       •   Goodwill Industries Southeast
                                                      Region Ticket Training Conference
   •   Delta Employment Networks                  •   United Rehabilitation Services
   •   Greendoor                                  •   GENEX
   •   Manpower, Inc.                             •   Rise, Inc.
   •   Crenshaw & Associates
                                 VR Agencies Trained
   •   Virginia Department of                     •   Minnesota Division of Vocational
       Rehabilitative Services                        Rehabilitation
   •   Pennsylvania Office of Vocational          •   Montana Vocational Rehabilitation
       Rehabilitation                                 All Staff Training
   •   Georgia Department of Labor                •   Indiana Vocational Rehabilitation
       Vocational Rehabilitation Program              Services
   •   Michigan Commission for the Blind          •   Missouri Rehabilitation Services for
                                                      the Blind
   •   North Carolina Division of                 •   District of Columbia Rehabilitation
       Rehabilitation Services                        Services Administration
   •   Nebraska Vocational Rehabilitation
Page 7 - The Commissioner



In addition to its classroom style courses, MAXIMUS established an on-line training
program for ENs and State VR agencies. MAXIMUS reported that the training section
on its web site was visited 105,958 times and training materials were accessed over
512,000 times from February 2003 to January 2004. MAXIMUS could not provide us
with a list of the individuals or organizations that downloaded training materials from the
on-line training program since such information is downloaded anonymously.

CONCLUSION AND RECOMMENDATIONS
SSA and MAXIMUS generally met the contract objectives for the 10 tasks we reviewed,
which were established to ensure for the proper implementation and management of the
TTW program. While the contract tasks were met, we identified opportunities to
improve the management of the program. Accordingly, we recommend that SSA and
MAXIMUS work together to:

1. Investigate all undeliverable tickets to determine if the reasons tickets were
   undeliverable correlate to a change in ticket eligibility or payment status.

2. Establish a policy on the retention of signed letters requesting a change to a ticket
   holder’s record, when such letters are needed, and ensure that the policy is followed
   in all cases.

3. Ensure that MAXIMUS has accurate information on the expiration of tickets so that it
   can properly inform ENs and State VR agencies of changes in ticket holders’
   eligibility.

4. Ensure ENs and State VR agencies have received the adequate training needed to
   properly serve ticket holders and adhere to TTW policies and procedures.

AGENCY COMMENTS AND OIG RESPONSE
SSA stated that it would further evaluate our first recommendation. It disagreed with the
second recommendation and agreed with third and fourth recommendations. In
response to the first recommendation, SSA stated it would evaluate how returned
tickets are handled to determine whether they should receive the same attention as
other returned mail. Our audit determined that SSA is currently not reviewing any mail
that is returned to Maximus, including letters that are marked “Deceased” by the USPS.

SSA policy requires SSA to investigate instances when it is informed of a potential
death through an undeliverable envelope or piece of mail that has been marked
“Deceased” by the USPS. SSA needs to review mail returned to Maximus to determine
the reasons the mail was returned, so it can identify and take action on mail items
marked “Deceased.” Additionally, mail returned for other reasons, like a wrong address,
could be an indication that living arrangements have changed, which may affect the
payment status of Title XVI recipients.
Page 8 - The Commissioner


In disagreeing with recommendation number 2, SSA stated that Maximus is under no
contractual obligation to retain paper documents or files associated with transactions
that are initiated by a letter from a beneficiary. We continue to recommend that SSA
develop a retention policy for the signed letters. We are not recommending that SSA
alter the contract, because the contract between Maximus and SSA includes a clause
on the facilitation of audits (Task 19). Specifically, the clause states:

   “The purpose of this task is to define the responsibilities under this requirement for
   the PM (Program Manager) contractor to participate in both administrative,
   programmatic, and financial audits with regard to the administration of this contract.
   To this end, the PM shall:

      A. Provide help and assistance to facilitate audits conducted by the OIG, the
         GAO, and/or other auditors as required by SSA, including the Defense
         Contracting Audit Agency or other contracted auditors. The PM contractor
         shall report any audit activities in the Monthly Progress Report.

      B. Provide, as well, assistance in the scheduling and coordination of program
         and contract compliance reviews conducted by SSA.

      C. Maintain complete comprehensive records of all data necessary to support
         such reviews and audits for the period required by law.”

However, we believe it is in SSA’s best interest to ensure Maximus complies with the
terms of the contract. Our recommendation does not suggest an indefinite retention of
the signed letters. Instead, we believe that SSA and Maximus should work together to
develop a retention policy for the signed letters so that Agency and/or OIG staff can
satisfy themselves that there is sufficient evidence to support the actions taken by the
contractor.

Other technical comments made by SSA have been addressed in the body of the
report. (See Appendix D for the Agency’s comments.)




                                                S
                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Background
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
AP       Alternate Participant
DI       Disability Insurance
EN       Employment Network
IWP      Individual Work Plan
OIG      Office of the Inspector General
PM       Program Manager
PO       Project Officer
RSVP     Referral System for Vocational Rehabilitation Providers Project
SSA      Social Security Administration
SSI      Supplemental Security Income
TTW      Ticket to Work
TWWIIA   Ticket to Work and Work Incentives Improvement Act of 1999
USPS     United States Postal Service
VR       Vocational Rehabilitation
                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we:

   •   Reviewed the regulations for the Ticket to Work (TTW) program authorized by
       the Ticket to Work and Work Incentives Improvement Act of 1999 (TWWIIA).

   •   Obtained and reviewed the contract between the Social Security Administration
       (SSA) and MAXIMUS, including all contract amendments.

   •   Met with SSA and MAXIMUS staff to become familiar with MAXIMUS operations
       and Ticket to Work processes.

   •   Requested and analyzed documentation, including the start-up plan, weekly
       start-up status reports, monthly progress reports and annual reports, to
       determine if they were submitted timely, were in the proper format and contained
       a comprehensive description and summation of progress made during specific
       time periods.

   •   Requested, reviewed and analyzed various training manuals, incoming call logs,
       desk guides, training binder logs, training records, and complaint call reports to
       evaluate the toll-free number operators.

   •   Determined if the toll-free number was operational by making various calls during
       the advertised hours of operation.

   •   Reviewed complaints from toll-free number callers to determine the quality of the
       operators’ responses to calls.

   •   Requested and reviewed documentation to ensure that contractor staff had a full
       understanding of the requirements of the TWWIIA, as well as their
       responsibilities in implementing the ticket program, and that the staff provided
       comprehensive training to Employment Networks (EN) and State Vocational
       Rehabilitation (VR) agencies. SSA or Maximus did not provide us, nor did we
       independently verify, the results of any surveys administered to determine if ENs
       and VRs were aware that training would be provided on the TTW program upon
       their request.

   •   Reviewed the process of the handling of tickets mailed to beneficiaries but
       returned by the United States Postal Service (USPS) for various reasons.




                                           B-1
   •   We reviewed 677 beneficiaries on a list recently obtained from Maximus whose
       tickets were returned and stamped “Deceased” by the USPS. During our audit
       the number of such beneficiaries totaled 625, as shown in Table 1 of this report.
       Of the 677 reviewed, SSA provided dates of death to MAXIMUS for 553
       beneficiaries. We evaluated the remaining 124 beneficiaries to determine if they
       were recorded as deceased on SSA’s mainframe and whether they were in
       current payment status.

   •   Obtained listings of 624 beneficiaries who elected to terminate their relationships
       with ENs, and 156 beneficiaries who requested a reassignment from one EN to
       another EN, and reviewed 20 of these cases to determine if signed letters from
       beneficiaries were obtained and the data base updated in a timely manner.

   •   Selected and reviewed a sample of 100 ticket holders’ Individual Work Plans
       (IWP) to determine if the IWPs were signed by both the beneficiary and the ENs
       and that they were entered into the data base in a timely manner.

In addition, we tested the reliability of SSA’s electronic files to determine if SSA properly
identified ticket-eligible beneficiaries and if they were mailed a ticket. To complete this
test we performed the following audit steps.

   •   Identified the population of Disability Insurance (DI) and Supplemental Security
       Income (SSI) ticket eligible beneficiaries who were receiving benefit payments as
       of 2002.

   •   Selected a random sample of 100 DI and SSI beneficiaries from a population of
       10,242,237 potential Ticket to Work candidates.

   •   Accessed and reviewed Master Beneficiary Records, Supplemental Security
       Income Record Displays and General Ticket Queries from SSA’s mainframe and
       reviewed them to determine if tickets were mailed or were soon to be mailed for
       the sampled beneficiaries.

We determined the computer processed data within Master Beneficiary Records,
Supplemental Security Income Records, and General Ticket Queries to be sufficiently
reliable for our intended use. We conducted tests to determine the completeness and
accuracy of the data. These tests allowed us to assess the reliability of the data and to
conclude that it was sufficient to achieve our audit objective.

We performed field work at MAXIMUS in Alexandria, Virginia and conducted our review
at the Office of the Inspector General, New York Office of Audit from July 2003 through
April 2004. The entities audited were the Office of Employment Support Programs
under the Office of the Disability and Income Security Programs and the Office of
Grants and Acquisitions. Our audit was performed in accordance with generally
accepted government auditing standards.



                                             B-2
                                                                        Appendix C

Background
The President of the United States signed the Ticket to Work and Work Incentives
Improvement Act (TWWIIA) of 19991 on December 17, 1999. It provides Social Security
beneficiaries with disabilities more choices for receiving employment services and
increase provider incentives to serve these individuals. Disability Insurance (DI) and
Supplemental Security Income (SSI) benefits are designed to provide a basic level of
support for individuals with disabilities whose earning ability is restricted due to their
impairments. Prior to Ticket to Work (TTW), DI and SSI beneficiaries with disabilities
who were believed to be good candidates for employment–related services were
referred to State Vocational Rehabilitation (VR) agencies, which were then reimbursed,
based on cost. In circumstances where the State VR agency declined to serve the
individual, a subsequent referral could be made to an Alternate Participant (AP), a non-
State service provider under contract to the Social Security Administration (SSA).

TTW is designed to address the barriers that disability beneficiaries encounter in
returning to work by:

      •   Expanding the availability of health care services and coverage;
      •   Eliminating certain work disincentives;
      •   Providing for enhanced benefits planning and assistance from other public and
          private sources; and
      •   Providing disability beneficiaries more options for receiving employment services
          and increase provider incentives to serve these individuals.

Under the program, SSA is directed to provide disability beneficiaries with a ticket they
may use to obtain State VR services, employment services, and/or other support
services from an Employment Network (EN) of their choice.

Program Manager

Day to day administration of the TTW program is the responsibility of a Program
Manager (PM). The PM is responsible for the full implementation of the Ticket to Work
and Self-Sufficiency Program and management of the Ticket process for SSA. The PM
contractor is precluded from direct participation in the delivery of employment services,
State VR services or other support services to beneficiaries in the service area covered
by the PM’s contract. In addition, the PM contractor shall not hold a financial interest in
an EN or service provider that provides services in a geographic area covered under the
PM’s contract.


1
    Public Law No. 106-170.
2
    Public Law No. 93-112 as amended (29 U.S.C. 720 et seq.).


                                                  C-1
SSA has contracted with MAXIMUS, Inc. (MAXIMUS) to perform this role. The contract
includes 23 specific tasks representing the specific contract services for which the PM
contractor is responsible.

Employment Networks

An EN is an agency or instrumentality of a public or private entity that will enter into
contract with SSA to assume responsibility for the coordination and delivery of
appropriate employment, employment activities, and other support services under the
program to individuals who have assigned tickets to the EN. SSA selects and enters
into contracts with ENs for service under the program. An EN must be either a single
provider of such services or an association of entities organized so as to combine their
resources into a single entity. An EN must provide the full range of services necessary
to prepare and place beneficiaries in employment, either directly or by entering into
contracts with other providers of such services.

An EN can elect to be paid under either the outcome payment system or the outcome-
milestone payment system. The EN will elect a payment system at the time the EN
enters into an agreement with SSA. Under the outcome payment system, SSA pays the
EN, up to 60 monthly payments, for each month in which Social Security disability
benefits and Federal SSI cash benefits are not payable to the individual the EN is
serving because of work or earnings. Payment for an outcome payment month under
the outcome payment system is equal to 40 percent of the payment calculation base for
the calendar year in which such month occurs, rounded to the nearest whole dollar.
Under the outcome-milestone payment system, there are four milestones for which the
EN can be paid. The milestones occur after the date on which the ticket was first
assigned and after the beneficiary starts to work. The four milestones which an EN can
be paid for are based on the earnings levels that SSA uses when it considers if work
activity is above its substantial gainful activity threshold.

State Vocational Rehabilitation Agencies

State VR agencies operate under Title 1 of the Rehabilitation Act of 1973,2 as amended.
The Act provided Federal grants administered through the Department of Education
available to States for the operation of comprehensive vocational rehabilitation
programs to eligible individuals with disabilities. State VR agencies may function as an
EN under the TTW program. Each agency must participate in the TTW program if it
wishes to receive payments from SSA for serving disabled beneficiaries who are issued
a ticket. When serving a beneficiary holding a ticket, the State VR agency may choose,
on a case-by-case basis, to seek payment under its elected EN payment system or
under the cost reimbursement payment system defined in the Rehabilitation Act.

When the State VR agency serves a beneficiary with a ticket as an EN, the State VR
agency will use the EN payment system it has elected for this purpose, either the
outcome payment system or the outcome-milestone payment system.




                                           C-2
Alternate Participants

An AP is any public or private agency (other than a participating State VR agency),
institution, organization, or individual with whom SSA has entered into agreement to
provide State VR services to disabled beneficiaries. APs operate under Project RSVP
(Referral System for Vocational Rehabilitation Providers Project). This legislation was
developed before the TWWIIA legislation, but with the same goals in mind. Prior to the
TWWIIA legislation, if a beneficiary was denied services through his/her State VR
agency, he/she was referred to Project RSVP to possibly receive services through an
AP. As the TTW program is phased into a particular state, it replaces Project RSVP.
APs continue to serve beneficiaries in non-Ticket states until the TTW program is
thoroughly implemented. An AP can choose to participate in the TTW program by
becoming and meeting the requirements of an EN.

Individual Work Plans

An Individual Work Plan (IWP) is an agreement between the beneficiary and the EN that
states the beneficiary’s vocational goal and outlines services necessary to achieve that
goal. It represents an agreement between the two parties, showing a mutual
understanding to work together to pursue the goal of gainful employment for the
beneficiary. The document includes the services necessary to attain the employment
goals, which can include transportation services, adult education, resume writing
classes, job placement, and many more. Both the beneficiary and the EN must sign an
IWP before a beneficiary’s ticket is considered assigned to that EN. State VR agencies
use a similar document called an Individualized Plan for Employment.

SSA and MAXIMUS entered into a contract on September 29, 2000. The contract has
23 tasks. Our audit focused on the following 10 tasks, as they are defined within the
contract:

Task 1: CONTRACTOR ORIENTATION

This orientation will provide familiarization with the SSA disability program, SSA return-
to-work initiatives, and the “Act,” as well as a thorough briefing on all contract
requirements and expectations.

Task 2: START-UP PLAN

The purpose of this task is for the PM contractor (MAXIMUS) to finalize and implement
the start-up phase of the contract in a minimum of 12 states, as described in the start-up
plan submitted as part of the PM contractor’s technical proposal.




                                            C-3
Task 3: TOLL-FREE NUMBER

The PM contractor shall establish and maintain a toll-free telephone number, “SSA
Ticket to Work Program Manager Hotline,” to facilitate responses to inquiries relating to
the implementation, administration and management of the TTW program.

Task 8: TICKET PROGRAM TRAINING

The purpose of this task is to provide comprehensive training to these
organizations/employees responsible for implementing the TTW program or providing
services under the program. The objective of the training is to ensure that these
organizations/employees have a full understanding of the requirement of the “Act”, as
well as their responsibilities in implementing the TTW program.

Task 9: MANAGEMENT OF TICKET PROCESS

The purpose of this task is to provide processes for the timely issuance of tickets to
beneficiaries on a phased-in basis; for management and oversight of ticket registration,
transfer, and termination; and for managing continuing ticket eligibility.

Task 16: MONTHLY PROGRESS REPORTS

The purpose of this task is to ensure the timely delivery and format of Monthly Progress
Reports. The PM contractor shall provide a comprehensive discussion of general
progress in performing the work due under the contract during the month and
cumulatively year-to-date. The PM contractor must provide a comprehensive
description of progress during the month on achieving workload goals and workload
progress year-to-date. The PM contractor shall provide a review and summation of all
deliverables under this contract during the month and year-to-date.

Task 17: ANNUAL REPORT

The purpose of this task is to ensure full documentation of the progress made under this
contract and provide a permanent record of the achievement of the objectives of Public
Law 106-170. To meet this requirement, the PM contractor shall submit to the Project
Officer (PO) a comprehensive report reflecting all work that has been done. The report
shall be formatted and written so that it can be easily read and understood by the
general public, as well as advocates for the disabled and other interested parties.

Task 20: PERIODIC MEETINGS WITH SSA PO

The PM contractor shall meet with the PO or the Contracting Officer on a regular basis
to discuss and review issues of mutual concern with regard to contract administration
and the achievement of program objectives. Such meetings may be as frequent as
biweekly or as occasional as quarterly but should be planned 26 times per year.




                                           C-4
Task 21: PERIODIC SPECIAL STUDIES

The PM contractor shall be prepared to perform or assist SSA in the performance of
special studies, analyses, and reports as directed by the PO on a variety of program
administration and management matters. The PM contractor shall plan for, at a
minimum, three such requests per year, requiring a total of one quarter work-year of
staff-time.

Task 22: CONFERENCE PLANNING

The purpose of this task is to define the contractor’s role in planning and implementing
conferences and meetings as required to discuss contract progress, the impact of policy
decisions and regulations on ticket operations, and the strategies for meeting program
changes as the program evolves.




                                          C-5
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM                                                                         101-24-1063


Date:      September 28, 2004                                                      Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Social Security Administration's Ticket to
           Work Program" (A-02-03-13079)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “SOCIAL SECURITY ADMINISTRATION'S TICKET TO WORK
PROGRAM" (A-02-03-1063)


Thank you for the opportunity to review and comment on the draft report. The Agency is
working to ensure that all disabled beneficiaries have the opportunity to learn and develop skills
that enable them to return to work. The Ticket to Work (TTW) program plays an important part
in our strategic objective to increase employment for people with disabilities.

The stated objective of this review was to ensure that contract objectives were being met and
were in accordance with the Ticket to Work and Work Incentives Improvement Act of 1999
(TWWIIA). We are pleased that the report finds that the Social Security Administration (SSA)
and MAXIMUS, Inc. met the contract objectives within all of the tasks reviewed, especially
since, as the report also notes, they were established to ensure the proper implementation and
management of the TTW program.

On page 3, the first sentence under 'Undeliverable Tickets' states, “We concluded that
MAXIMUS mailed a ticket to all eligible beneficiaries.” The process calls for SSA to mail
tickets to eligible beneficiaries when eligible beneficiaries are identified by the system, while
MAXIMUS mails the tickets on an “as requested” basis. The bulk of the ticket mailings
included in this review were performed under a separate mailing contract administered by SSA.
MAXIMUS mailed tickets only on demand and for second mailings on returned tickets.

The report refers to batch returned mail marked “no such address” which does not correspond to
any of the designations in either Table 1 or Table 2. Thus, it is unclear exactly which
undeliverables were considered by the reviewers. The report should explain why the “no such
address” designation is used. Also, it would be helpful for the report to include an appendix or
reference to explain what the United States Postal Service designations mean.

Our responses to the specific recommendations are provided below.

Recommendation 1

Investigate all undeliverable tickets to determine if the reasons tickets were undeliverable
correlate to a change in ticket eligibility or payment status.

Response

Ticket eligibility is based on a number of criteria that are separate from the correct mailing
address of a beneficiary and an investigation to determine the reason tickets were undeliverable
is not likely to correlate with a change in ticket eligibility. While this issue was outside of the
objectives and scope of the audit, we will evaluate how returned tickets are handled to determine
whether they should receive the same attention as other returned mail.

Recommendation 2


                                                D-2
Establish a policy on the retention of signed letters requesting a change to a ticket holder’s
record, when such letters are needed, and ensure that the policy is followed in all cases.

Response

We disagree. The current contract with MAXIMUS requires ticket holders to submit their
requests in writing to leave the TTW program or to reassign their tickets from one Employment
Network (EN) or Vocational Rehabilitation (VR) agency to another before MAXIMUS updates
the beneficiary's record. While MAXIMUS is contractually obligated to enter and record ticket
transactions in their Information Technology (IT) system and transfer such data to SSA’s IT
system on a nightly basis, there is no contractual obligation to retain paper documents or files
associated with these transactions.

MAXIMUS has an internal policy in place that is independent of contract requirements and
which requires them to retain as many of the original documents as possible. We do not believe
there is a need to establish a formal policy (contract change) to require a paper trail for ticket
assignment change requests.

Recommendation 3

Ensure that MAXIMUS has accurate information on the expiration of tickets so that it can
properly inform ENs and State VR agencies of changes in ticket holders’ eligibility.

Response

We agree. This goes to the heart of the EN/VR payment process and the information needs to be
captured. In June 2004, we made significant improvements in software supporting the ticket
termination process that will improve the accuracy of data provided to MAXIMUS from the
Disability Control File. In addition, we are working to identify requirement changes that are
needed to further improve system accuracy and data integrity and to provide a correction facility
to reinstate tickets that have been erroneously terminated. These plans include providing
corrected data to MAXIMUS. SSA is currently working on restructuring the Title XVI record to
enhance those data elements and plans to release that systems update sometime in early 2005.

Until a complete systems data correction can be achieved, the Agency has provided MAXIMUS
with some additional draft guidance identifying those ticket records for which MAXIMUS
should issue ticket termination notices. We have been working to clearly define, as early as
possible in the process, the various types of claim termination circumstances that warrant a ticket
termination notice. We are now able to identify six different types of situations in which an SSA
employee can take direct action to terminate a ticket. SSA simultaneously will send a record of
these actions to MAXIMUS so that they can issue a notice to ENs advising them of "ticket
expiration." We are also working to identify and resolve more complex data requirements in
SSA records, such as ticket terminations involving dual program entitlement or needs-based
program rules requiring further case review.



                                                D-3
Recommendation 4

Ensure ENs and State VR agencies have received the adequate training needed to properly serve
ticket holders and adhere to TTW policies and procedures.

Response

We agree that ENs and State VR agencies should receive the training they need to properly serve
ticket holders and adhere to policy. MAXIMUS is contractually obligated to provide training to
ENs and State VR agencies; however, ENs and State VR agencies are not required to take
advantage of specific training offerings. We do not believe we should attempt to impose training
requirements on ENs and State VR agencies; however, we will work with MAXIMUS to ensure
that training is readily available. MAXIMUS recently implemented a new communications tool
called the e-training update to highlight recent ticket news and program developments and to
reinforce the use of e-training update with supporting training materials and activities. We will
request that MAXIMUS use this tool to issue periodic reminders to ENs and State VR agencies
regarding the availability of the full array of training options.




                                              D-4
                                                                        Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Office of Audit, (212) 264-5295

Acknowledgments
In addition to those named above:

   Arthur Treglia, Senior Auditor

   Robert Blake, Senior Auditor

   Stephen Liebman, Senior Auditor

   Kevin Joyce, Senior Auditor

   Christine Hauss, Program Analyst

   Abraham Pierre, Auditor

   Cheryl Robinson, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the OIG’s Public Affairs Specialist at (410) 965-3218. Refer to Common
Identification Number A-02-03-13079.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
